No. _______

In the
Supreme Court of the United States

Noe Perez,
Petitioner,
v.
Renee Baker, Warden, et al.
Respondents-Appellees.
On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
Motion for Leave to Proceed In Forma Pauperis

Rene Valladares
Federal Public Defender,
District of Nevada
*Rick A. Mula
Assistant Federal Public Defender
411 E. Bonneville Ave., Ste. 250
Las Vegas, Nevada 89101
(702) 388-6577
Rick_Mula@fd.org
*Counsel for Noe Perez

Petitioner Noe Perez respectfully asks for leave to file the attached petition for
writ of certiorari without prepayment of costs and to proceed in forma pauperis.
Counsel was appointed by the United States District Court for the District of Nevada
under 18 U.S.C. ยง 3599(a)(2), see Perez v. Baker, No. 3:17-cv-00538-HDM-CLB, ECF
No. 5 (D. Nev. December 6, 2017), and the United States Court of Appeals for the
Ninth Circuit allowed Mr. Perez to proceed on appeal without the prepayment of fees.
See SUPREME COURT RULE 39.1 (authorizing leave to proceed in forma pauperis when
counsel was appointed in lower court due to indigency). Accordingly, no affidavit is
attached.
Dated June 30, 2021
Respectfully submitted,
Rene L. Valladares
Federal Public Defender
/s/ Rick A. Mula
Rick A. Mula
Assistant Federal Public Defender

1

